HHS/OIG, Audit -"District of Columbia Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism
Hospital Preparedness Planning Program Funds,"(A-03-03-00386)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"District of Columbia Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness
Planning Program Funds," (A-03-03-00386)
February 2, 2004
Complete
Text of Report is available in PDF format (881 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the District of Columbia Department of Health (District)  properly
recorded, summarized and reported bioterrorism preparedness transactions in accordance with the terms and conditions of
the cooperative agreements and whether the District has established controls and procedures to monitor sub-recipient expenditures
of Health Resources and Services Administration (HRSA) funds.  We determined that the District generally accounted
for program funds in accordance with the terms and conditions of the cooperative agreement and applicable departmental
regulations and guidelines.  However, we have concerns regarding whether the District will be able to meet the requirement
to allocate at least 80 percent of the Phase II funds to hospitals through written contractual agreements.  Also,
the District had not begun disbursement of funds awarded by HRSA to hospital sub-recipients as required by the cooperative
agreement guidance.